APPENDIX
Decision of the court of appeals
United States v. Gonzalez-Ferretiz, 813 F. App’x 837 (4th Cir. 2020). . . . . . 1a
District court’s memorandum opinion
United States v. Gonzalez-Ferretiz, No. 3:18-cr-117, 2019 WL 943388
(E.D. Va. Feb. 26, 2019). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9a
Department of Homeland Security Form I-851, Notice of Intent to Issue a
Final Administrative Removal Order. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18a

United States v. Gonzalez-Ferretiz, 813 Fed.Appx. 837 (2020)

813 Fed.Appx. 837
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007. See
also U.S.Ct. of Appeals 4th Cir. Rule 32.1.
United States Court of Appeals, Fourth Circuit.

Affirmed.
Procedural Posture(s): Appellate Review; Pre-Trial Hearing
Motion; Sentencing or Penalty Phase Motion or Objection.
West Headnotes (3)

UNITED STATES of America, Plaintiff - Appellee,
v.
Isidoro GONZALEZ-FERRETIZ, a/k/a Francisco
Rodriguez-Vela, Defendant - Appellant.

[1]

Aliens, Immigration, and
Citizenship
Denial of right to appeal;
waiver of right
Deportation proceedings at which removal order
had been issued had not improperly deprived
defendant of opportunity for judicial review, and
thus provision, of Immigration and Nationality
Act (INA) section on reentry of removed
aliens, which limited collateral attacks on
underlying deportation orders applied to bar
defendant charged with one count of illegal
reentry by removed alien from collaterally
attacking underlying removal order; defendant
had given up administrative or judicial review in
underlying removal proceedings by completing
waivers on “Notice of Intent to Issue a Final
Administrative Removal Order,” and defendant
did not assert that he could not understand
English or make any other claim of limited
capacity to make knowing waiver of judicial
review in removal proceedings. Immigration and

No. 19-4409
|
Submitted: March 17, 2020
|
Decided: May 13, 2020
Synopsis
Background: Defendant was charged with one count of
illegal reentry by removed alien. The United States District
Court for the Eastern District of Virginia, Robert E.
Payne, Senior District Judge, denied defendant's motion
which sought to dismiss indictment via collateral attack
on underlying removal order, 2019 WL 943388, and, after
defendant was convicted upon conditional guilty plea which
preserved his right to appeal denial of motion, sentenced
defendant to 21 months' imprisonment over defendant's
objection that probation officer had incorrectly calculated
length of defendant's sentence for prior offense. Defendant
appealed.

Nationality Act § 276,

[2]
Holdings: The Court of Appeals, Thomas E. Johnston, Chief
Judge, sitting by designation, held that:
[1] Immigration and Nationality Act (INA) limitations
on collateral attacks on underlying removal orders barred
defendant's collateral attack;
[2] defendant could not avoid INA limitations by challenging
order as ultra vires agency action; and

8 U.S.C.A. § 1326.

Aliens, Immigration, and
Citizenship
Collateral Attack
Whether based on an official's authority to act
or an incorrect application of that authority, a
collateral challenge to a removal order cannot
skirt the requirements of the provision, of the
Immigration and Nationality Act (INA) section
on reentry of removed aliens, which limits
collateral attacks on underlying deportation
orders. Immigration and Nationality Act § 276,
8 U.S.C.A. § 1326(d).

[3] length of defendant's sentence for prior offense had been
properly calculated.

App. 1a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Gonzalez-Ferretiz, 813 Fed.Appx. 837 (2020)

[3]

Offense or
Sentencing and Punishment
adjudication in other jurisdiction

Unpublished opinions are not binding precedent in this
circuit.

Prior prison sentence, of defendant convicted
of illegal reentry by removed alien, for his
Pennsylvania conviction for theft from motor
vehicle exceeded one year and one month,
for purposes of federal sentencing guidelines
requiring addition of three criminal history
points for each prior prison sentence of such
length and addition of six points to base
offense level for each prior felony conviction
for which sentence imposed had been of such
length, where, for theft conviction, defendant
had been sentenced to approximately five to
six weeks for time served to maximum of 23
months' imprisonment, with immediate parole.

JOHNSTON, District Judge:
Isidoro Gonzalez-Ferretiz (“Gonzalez”) was convicted of one
count of illegal reentry by a removed alien. He now appeals
his conviction and sentence on two grounds. First, Gonzalez
argues that the district court erred in denying his motion
to dismiss the indictment. Second, Gonzalez challenges the
district court's application of the United States Sentencing
Guidelines (“U.S.S.G.”) with respect to a prior conviction.
For the following reasons, we affirm.

I.

Immigration and Nationality Act § 276,
8
U.S.C.A. § 1326(a); 18 Pa. Stat. Ann. § 3934(A);
U.S.S.G. §§ 2L1.2(b)(2)(C),

4A1.1(a).

*838 Appeal from the United States District Court for the
Eastern District of Virginia, at Richmond. Robert E. Payne,
Senior District Judge. (3:18-cr-00117-REP-1)
Attorneys and Law Firms
Geremy C. Kamens, Federal Public Defender, Alexandria,
Virginia, Joseph S. Camden, Assistant Federal Public
Defender, OFFICE OF THE FEDERAL PUBLIC
DEFENDER, Richmond, Virginia for Appellant. G. Zachary
Terwilliger, United States Attorney, Alexandria, Virginia,
Heather Hart Mansfield, OFFICE OF THE UNITED STATES
ATTORNEY, Richmond, Virginia for Appellee.
Before KEENAN and RUSHING, Circuit Judges, and
Thomas E. JOHNSTON, Chief United States District Judge
for the Southern District of West Virginia, sitting by
designation.
Opinion
Affirmed by unpublished opinion. Judge Johnston wrote the
opinion, in which Judge Keenan and Judge Rushing have
joined.

Gonzalez is a Mexican citizen. He illegally entered the
United States sometime before July 22, 2008, when he was
encountered in Pennsylvania by immigration authorities from
the Department of Homeland Security (“DHS”). Gonzalez
was offered a voluntary departure to Mexico, with which he
complied. He again entered the United States illegally on
some unknown date prior to an arrest in July 2012. On July 23,
2012, immigration authorities interviewed Gonzalez while in
state custody, and he admitted that he had entered the United
States unlawfully. No further action was taken to remove him
at that time.
On June 2, 2014, Gonzalez pled guilty to theft from a
motor vehicle, in violation of Pennsylvania law, 18 Pa.
Code § 3934(A). Pursuant to Pennsylvania's indeterminate
sentencing scheme, Gonzalez was sentenced to a minimum
term of confinement of “time served 4/24/14–6/2/14” and a
maximum of “23 mos.” J.A. 148. Notably, the sentencing
court also granted Gonzalez “immediate parole” as a “specific
condition[ ].” Id.
The day after sentencing, the DHS initiated removal
proceedings against Gonzalez by serving him with a Notice
of Intent to Issue a Final Administrative Removal Order
(“NOI”), also known as a Form I-851. The NOI stated
that Gonzalez was removable due to his conviction of an
aggravated felony as defined under
*839 8 U.S.C.
§ 1101(a)(43)(G) of the Immigration and Nationality Act
(“INA”). The NOI included an attachment listing Gonzalez's
prior conviction for theft from a motor vehicle, in violation of
Pa. Code § 18-3934(A), for which he was sentenced to a term

App. 2a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Gonzalez-Ferretiz, 813 Fed.Appx. 837 (2020)

of imprisonment of 23 months, as the basis for his removal.
The NOI also contained a section explaining a charged alien's
“Rights and Responsibilities,” including the right to legal
representation and the right to contest the charge. J.A. 149.
The NOI was printed in English, and an immigration officer
explained the form to Gonzalez in English. Gonzalez signed
the NOI acknowledging service. In addition, he checked a box
admitting the allegations in the charge and indicating that he
did not contest his removal. He also checked a box waiving
his right to remain in the United States for 14 days to apply
for judicial review and signed below the assented waiver. A
Final Administrative Removal Order issued on June 3, 2014,
and Gonzalez was removed from the United States on June
19, 2014.

Gonzalez objected to the six-level enhancement and criminal
history calculation, arguing that the probation officer
incorrectly calculated the sentence of his prior theft offense
in Pennsylvania. Specifically, Gonzalez argued that, although
he was sentenced to time served to 23 months, he received
immediate parole after serving five to six weeks, which
constitutes a “suspended sentence” that should not be
considered in calculating the guidelines range. The district
court overruled the objection and, ultimately, imposed a
sentence of 21 months’ imprisonment. Gonzalez timely
appealed.

Sometime after his removal, Gonzalez again reentered the
United States illegally and was discovered by immigration
authorities. Pursuant to the 2014 removal order, he was
deported to Mexico in March 2018. In September 2018,
Gonzalez was again encountered by immigration authorities
in Henrico County, Virginia. As a result, he was charged in
a one-count indictment in the Eastern District of Virginia for

On appeal, Gonzalez contends that the district court erred in
failing to grant his motion to dismiss the indictment based on
a collateral attack of the underlying removal order. He also
maintains that the district court committed procedural error in
applying a six-level enhancement and *840 calculating his
criminal history score based on the imposed length of a prior
sentence. We address each argument in turn.

illegal reentry, in violation of

8 U.S.C. § 1326(a).

Gonzalez filed a motion to dismiss the indictment, arguing
that the underlying removal order was unlawful. The district
court found after an evidentiary hearing that Gonzalez
understood English at the time he completed the form and that
he understood the waivers to which he assented. Gonzalez
then entered a conditional guilty plea, preserving his right to
appeal the motion to dismiss the indictment.
Prior to sentencing, the United States Probation Office
prepared a presentence report (“PSR”). In the PSR, the
probation officer determined that Gonzalez's base offense
level under

II.

U.S.S.G. § 2L1.2(a) was eight. He then applied

a six-level enhancement under
U.S.S.G. § 2L1.2(b)(2)
(C) based on Gonzalez's prior felony conviction, namely,
the Pennsylvania theft from a motor vehicle conviction, for
which the probation officer determined he had received a
sentence exceeding one year and one month. After a twolevel reduction for acceptance of responsibility, Gonzalez's
offense level came to 12. His criminal history score was
eight, which resulted in a criminal history category of IV.
Based upon an offense level of 12 and a criminal history
category of IV, Gonzalez's guidelines range was 21–24
months’ imprisonment.

A. Collateral Attack of Removal Order
On a motion to dismiss an indictment under
8 U.S.C.
§ 1326(d), we review a district court's factual findings for
clear error and the court's legal conclusions de novo. See
United States v. Hosford, 843 F.3d 161, 163 (4th Cir. 2016).
In 1987, the Supreme Court recognized a due process right
for an alien charged with unlawful reentry after removal
under

§ 1326 to challenge the underlying removal order.

See
United States v. Mendoza-Lopez, 481 U.S. 828,
837–38, 107 S.Ct. 2148, 95 L.Ed.2d 772 (1987) (explaining,
“where a determination made in an administrative proceeding
is to play a critical role in the subsequent imposition of a
criminal sanction,” due process requires “some meaningful
review of the administrative proceeding.”) (emphasis in
original). Thus, the Supreme Court held that where a
procedural defect in an immigration proceeding forecloses
judicial review of a removal order, such proceeding may not
be relied on to support a subsequent criminal conviction. See
id. at 838, 107 S.Ct. 2148; United States v. GuzmanVelasquez, 919 F.3d 841, 845 (4th Cir. 2019).

App. 3a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Gonzalez-Ferretiz, 813 Fed.Appx. 837 (2020)

Thereafter, Congress codified this due process requirement
8 U.S.C. § 1326(d), which provides a limited avenue
in
to attack a prior removal order. See United States v. MorenoTapia, 848 F.3d 162, 165–66 (4th Cir. 2017). This section
provides that an alien may challenge the validity of a removal
order only if “(1) the alien exhausted any administrative
remedies that may have been available to seek relief against
the order; (2) the deportation proceedings at which the order
was issued improperly deprived the alien of the opportunity
for judicial review; and (3) the entry of the order was
fundamentally unfair.”
8 U.S.C. § 1326(d). As indicated
by the statutory language, a defendant must “satisfy all three”
requirements to successfully attack an underlying removal
order.
United States v. El Shami, 434 F.3d 659, 663
(4th Cir. 2005). However, an alien may be excused from
meeting certain
§ 1326(d) requirements where the failure
to do so “is itself the product of a procedural flaw in the
immigration proceeding.” Moreno-Tapia, 848 F.3d at 169;
United States v. Lopez-Collazo, 824 F.3d 453, 459–62 (4th
Cir. 2016) (excusing § 1326(d)(1) and (d)(2) requirements
where language barrier prevented alien from understanding
waivers contained in the I-851 form);

El Shami, 434 F.3d

§ 1326(d) requirements and finding
at 662–64 (excusing
due process violation where alien did not receive notice of his
immigration proceedings).
In Gonzalez's case, the district court ruled that he could not
mount a collateral attack on his 2014 removal order. The
district court reviewed the three-part standard of § 1326(d)
and held that Gonzalez did not exhaust his administrative
remedies and was not deprived of judicial review under
requirements (1) and (2). We focus our discussion on the
judicial review requirement under

§ 1326(d)(2).

immigration proceedings deprived alien from seeking judicial
review because language barrier prevented the waivers of
right to appeal to be *841 “considered and intelligent”).
Instead, he argues that, as a matter of law, his waivers were
ineffective because he was unaware of his right to contest
whether his underlying conviction qualified as an aggravated
felony. Thus, he maintains that he is excused from satisfying
the judicial review requirement under
Gonzalez primarily relies on

[1] Gonzalez argues that his waivers on the I-851 form
purportedly giving up any administrative or judicial review
were not “considered and intelligent.” Br. of Appellant at
10. Notably, Gonzalez does not rely on any assertion that he
could not understand English or any other claim of limited
capacity to make a knowing waiver. Cf.
MendozaLopez, 481 U.S. at 840, 107 S.Ct. 2148 (holding that

Etienne v. Lynch, 813 F.3d

Etienne,
135 (4th Cir. 2015) for this proposition. In
however, the Court did not confront a collateral challenge to
a removal order under

§ 1326(d). Rather, we considered

8 U.S.C. § 1252(d)(1) to review
our jurisdiction under
a petitioner's challenge to the designation of his underlying
conviction as an aggravated felony under the INA at the time
he was being deported.
Id. at 138 (stating that an alien is
required to “exhaust[ ] all administrative remedies available
to the alien as of right” before a court has jurisdiction). We
held that the exhaustion provision under
§ 1252(d)(1)
requires a petitioner to “us[e] all steps that the agency holds
out, and do so properly.”
Id. at 141 (quoting
Woodford
v. Ngo, 548 U.S. 81, 90, 126 S.Ct. 2378, 165 L.Ed.2d 368
(2006)) (emphasis in original). Etienne, unlike Gonzalez,
checked the box on the I-851 form indicating that he wished
to contest his removal, but he did not further indicate the
nature of his argument.
Id. at 137. In considering whether
Etienne exhausted all administrative remedies, we concluded
that, while the expedited removal procedures and the I-851
form allowed petitioners to raise factual challenges to their
deportation, they do not provide an avenue to challenge the
legal basis for their removal.
Id. at 141–42. Thus, we held
that Etienne “was not required to raise his legal challenge
to removal in order to meet the [administrative] exhaustion
requirement” necessary to invoke this Court's jurisdiction
under

1. Opportunity for Judicial Review

§ 1326(d)(2).

§ 1252(d)(1).

Id. at 142.

Gonzalez's case is not like
Etienne. For one,
Etienne
arose in a different context, concerning an appellate court's
jurisdiction to review in the first instance a petitioner's
challenge to his expedited deportation, while Gonzalez's case
involves a challenge to the validity of the removal order
that formed the basis of his criminal prosecution. Most
importantly,

App. 4a

Etienne involved an alien who indicated on

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Gonzalez-Ferretiz, 813 Fed.Appx. 837 (2020)

his I-851 form that he wished to contest his removal, whereas
Gonzalez plainly indicated that he waived his right to do so
and consented to deportation.
Contrary to Gonzalez's argument, this Court's decision in
Etienne does not support his assertion that he was deprived
§ 1326(d)(2). See
of judicial review for purposes of
United States v. Segura-Virgen, 390 F. Supp. 3d 681, 697
(E.D. Va. 2019), aff'd, 799 F. App'x 214 (4th Cir. 2020)
(rejecting identical argument and holding that

Etienne’s

“application in the
Section 1326 context is limited to,
at most, the exhaustion of administrative remedies prong
of

Section 1326(d)(1), not to the judicial review prong

of Section 1326(d)(2).”). Indeed, Etienne affirmatively
establishes that a person in Gonzalez's circumstances may
petition a court of appeals to review whether an offense
is an aggravated felony in the immigration context, even
when the DHS form utilized in the immigration proceedings
does not allow for such a challenge.

Etienne, 813 F.3d at

141–42. But again, unlike
Etienne, Gonzalez waived any
opportunity to pursue such a petition before a court of appeals
or administrative tribunal.
Relatedly, Gonzalez asserts that the
Etienne decision
establishes that he had no opportunity to challenge the
designation of his prior conviction as an aggravated felony
in the immigration proceedings and, therefore, is excused
from exhausting any administrative remedies from his 2014
removal *842 order under
§ 1326(d)(1). Assuming that
proposition to be true, Gonzalez then emphasizes that the
Court of Appeals for the Ninth Circuit has “generally found
that where an alien was deprived of the opportunity to exhaust
his administrative remedies, satisfying
§ 1326(d)(1), he
also has shown that he was deprived of the opportunity
to seek judicial review, satisfying
§ 1326(d)(2).” United
States v. Gonzalez-Villalobos, 724 F.3d 1125, 1126 (9th Cir.
2013). Gonzalez therefore argues that, because
Etienne
excuses his failure to exhaust his administrative remedies,
he also satisfies, or is excused from satisfying, the judicial
review prong of § 1326(d)(2) under the Gonzalez-Villalobos
decision.

Gonzalez's argument that the
§ 1326(d)(1) and
(d)
(2) requirements involve a single inquiry is based on an
incomplete reading of Gonzalez-Villalobos. The Ninth Circuit
recognized in Gonzalez-Villalobos that the analyses of

§

(d)(2) should be tethered only when a
1326(d)(1) and
purported error in the immigration proceedings “affect[s] [the
alien's] awareness of or ability to seek judicial review.” 1
724 F.3d at 1132. Here, there is nothing about Gonzalez's
immigration proceedings that affected his “awareness of or
ability to seek judicial review.” Id. Gonzales understood that
he could seek judicial review in his immigration proceedings
as the I-851 form clearly set forth, but he decided to forego
that opportunity. Accordingly, as Gonzalez has identified
no impediment to his ability to seek judicial review of his
removal order, neither
advances his argument.

Etienne nor Gonzalez-Villalobos

In sum, the district court properly concluded that Gonzalez
was not deprived of an opportunity for judicial review.
Therefore, we do not need to consider whether, under the
rationale provided in
Etienne, Gonzalez was prevented
from exhausting his administrative remedies to challenge
whether his underlying conviction qualified as an aggravated
felony.

2. Jurisdiction
Alternatively, Gonzalez maintains that he may collaterally
challenge his removal order apart from the requirements
under
§ 1326(d) as “an ultra vires [agency] action.” Br.
of Appellant at 34. In that regard, Gonzalez asserts that
the immigration officer who ordered his removal exceeded
his statutory authority because such an officer is authorized
only to order the removal of an alien who has actually been
convicted of an aggravated felony. According to Gonzalez,
the Pennsylvania theft offense for which he was convicted is
not an aggravated felony, and, as a result, the immigration
officer “lacked subject matter jurisdiction” to order his
removal. Id. at 34–35.
Gonzalez has not cited a single case to support his ultra vires
argument in the context of a
§ 1326 prosecution. Instead,
he cites several appellate decisions wherein courts found
in the first instance that the Board of Immigration Appeals
lacked jurisdiction to remove an alien where an immigration

App. 5a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Gonzalez-Ferretiz, 813 Fed.Appx. 837 (2020)

judge had not ordered removal. See, e.g.,

Noriega-Lopez v.

Ashcroft, 335 F.3d 874, 884–85 (9th Cir. 2003);
v. Gonzales, 464 F.3d 505, 514 (5th Cir. 2006);

James
Rhodes-

Bradford v. Keisler, 507 F.3d 77, 80 (2d Cir. 2007); Munoz
Erazo v. United States, 506 F. App'x 938, 944 (11th Cir.
2013);
*843 Anderson v. Holder, 673 F.3d 1089, 1094
(9th Cir. 2012). Critically, these cases are distinct because
the jurisdictional challenges were raised on direct petitions
for review. Again, Gonzalez waived his right to apply for
judicial review. Thus, these cases have no application here.
More fundamentally, these cases highlight the differences
between an agency with authority to act, but which acts based
on factual or legal errors, and a governmental body with no
authority to act at all. Only the latter is ultra vires.
[2] The Court finds Gonzalez's ultra vires argument
unpersuasive for the reasons set forth in
United States
v. Cortez, 930 F.3d 350 (4th Cir. 2019). There, the parties
assumed that a successful challenge to the immigration
court's subject matter jurisdiction would allow for a collateral
attack of the removal order.
Id. at 356. We rejected
this notion, explaining that “there is no freestanding rule
allowing for collateral attacks based on a lack of subject
matter jurisdiction,” and a jurisdictional assertion “is not
meaningfully distinct from a more routine claim that an
immigration court has misconstrued the INA[,]” subject to the
§ 1326(d) requirements.
Id. at 357–58. Although the
ultra vires assertion was addressed in dicta, the reasoning set
forth in
Cortez is convincing and applicable to Gonzalez's
identical claim here. Whether based on an official's authority
to act or an incorrect application of that authority, a collateral
challenge to a removal order cannot skirt the requirements
of
§ 1326(d). Accordingly, Gonzalez must satisfy
§
1326(d)’s criteria to proceed with a collateral challenge to his
removal order.

B. Sentencing Guideline Calculation
[3] Next, we turn to Gonzalez's argument that the district
court committed procedural error in applying the sentencing
guidelines. In assessing a district court's application of the
sentencing guidelines, “we review factual findings for clear
error and legal conclusions de novo.” United States v. Savage,
885 F.3d 212, 225 (4th Cir. 2018), cert. denied, ––– U.S. ––––,

139 S. Ct. 238, 202 L. Ed. 2d 160 (2018). “[C]lear error occurs
when a district court's factual findings are against the clear
weight of the evidence considered as a whole.”
United
States v. Span, 789 F.3d 320, 325 (4th Cir. 2015) (citations
and internal quotation marks omitted). Under the clear error
standard, we will only reverse if we are “left with the definite
and firm conviction that a mistake has been committed.”
Id. (internal quotation marks omitted).
Gonzalez maintains that the district court erred in attributing
three criminal history points under

U.S.S.G. § 4A1.1(a)

U.S.S.G. § 2L1.2(b)
and a six-level enhancement under
(2)(C) for his prior Pennsylvania conviction for which he
was sentenced to a minimum of approximately five to six
weeks for time served to a maximum of 23 months, with
Section 4A1.1(a) provides that three
immediate parole.
criminal history points must be added “for each prior sentence
of imprisonment exceeding one year and one month.” In
addition,
§ 2L1.2(b)(2)(C) requires that six points be
added to the base offense level for each prior felony
conviction for which the sentence imposed exceeded one year
and one month. The commentary to
§ 2L1.2 explains that
the phrase “sentence imposed” has “the meaning given the
term ‘sentence of imprisonment’ in Application Note 2 and
subsection (b) of § 4A1.2.”

U.S.S.G. § 2L1.2, n.2.

Gonzalez relies on
U.S.S.G. § 4A1.2(b)(1), which reads
that a “ ‘sentence of imprisonment’ means a sentence of
incarceration and refers to the maximum sentence imposed.”
Section 4A1.2(b)(2) continues by stating, “[i]f part *844
of a sentence of imprisonment was suspended, ‘sentence
of imprisonment’ refers only to the portion that was not
suspended.” Thus, any suspended portion of a sentence at
the time of judgment does not count in determining criminal
history points or a specific offense enhancement.
Pertinent here, the commentary to
§ 4A1.2 provides that,
in applying this section to an indeterminate sentence, the
“maximum sentence imposed” is the high end of the sentence
range. See
U.S.S.G. § 4A1.2, n.2 (“[I]n the case of
an indeterminate sentence of one to five years, the stated
maximum is five years.”). The commentary also explains
that “criminal history points are based on the sentence
pronounced, not the length of time actually served.” Id.

App. 6a

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

United States v. Gonzalez-Ferretiz, 813 Fed.Appx. 837 (2020)

Gonzalez contends that immediate parole, when ordered by
a sentencing court, “functionally” qualifies as a suspended
sentence under Pennsylvania law for purposes of the
guidelines. 2 Gonzalez argues that because the sentencing
court ordered him to immediate parole after serving five
to six weeks, there was no possibility that he would serve
23 months in prison. Thus, he asserts that his sentence of
confinement for time served to 23 months, with immediate
parole, is neither “a conviction for a felony offense ...
for which the sentence imposed exceeded one year and
one month” under
U.S.S.G. § 2L1.2(b)(2)(C) nor a
“sentence of imprisonment exceeding one year and one
month” under U.S.S.G. § 4A1.1(a). He submits that, under
the guidelines, his sentence should have been calculated to
include only his time served, being approximately five to six
weeks. The district court disagreed, finding that Gonzalez's
Pennsylvania sentence was indeterminate, “from time served
at the low end to 23 months on the high end, and that was the
sentence that was actually imposed.” J.A. 276–78. The district
court reasoned that the imposed maximum should be used in
calculating the guideline range, and that, although Gonzalez
received immediate parole, the sentencing court did not order
the sentence suspended.
In reaching this conclusion, the district court rejected
Gonzalez's reliance on

United States v. Tabaka, 982

F.2d 100 (3d Cir. 1992). In
Tabaka, the defendant was
sentenced in Pennsylvania to a minimum of 48 hours to a
maximum of 15 months for driving under the influence. Id.
at 101. The “state judge entered an order stating that ‘the
sentence as to imprisonment as above set forth be suspended
during good behavior and the Defendant is placed on Parole
for the unexpired portion of the maximum term.”
Id. The
Third Circuit found that this language explicitly imposed a
suspended sentence for all but 48 hours and, accordingly, the
enhancement for a maximum penalty exceeding one year and
one month was not applicable.

Id. at 102–03.

The district court properly concluded that the present case
is more in line with United States v. Holmes, 600 F. App'x
853 (3d Cir. 2015) (considering on plain error review a
Pennsylvania court's imposition of sentence). There, the
defendant argued, as Gonzalez does here, that “immediate
parole is the functional equivalent of a suspended sentence.”
Id. at 856. The Third Circuit rejected this argument,

concluding there was no precedent to support the defendant's
assertion. Id. The district court also cited this Court's decision
in *845 United States v. Jenkins, 198 F.3d 238, 1999
WL 798880, at *1 (4th Cir. Oct. 7, 1999) (unpublished
table decision) (affirming a district court's assignment of
three criminal history points for a Pennsylvania conviction
that resulted in sentence of nine days to 23 months, with
immediate parole ordered after serving the minimum nine
days).
The district court's conclusion was correct. The guideline's
commentary explains that “criminal history points are based
on the sentence pronounced, not the length of time actually
served.”
§ 4A1.2, n.2 (emphasis added). Gonzalez cites
no authority that rejects this guidance and holds, to the
contrary, that the functional effect of a sentencing order,
rather than the language used in the sentencing judgment,
defines a suspended sentence under the guidelines. Instead,
Gonzalez cites cases that merely stand for the proposition
that the term “suspended sentence” under the guidelines
refers only to court ordered suspensions as opposed to
administrative agency ordered suspensions. See, e.g., United
States v. Rodriguez-Bernal, 783 F.3d 1002, 1004–05 (5th Cir.
2015) (holding that “[o]nly a court can suspend a sentence
§ 4A1.2(b)(2) exception.”); United
for purposes of the
States v. Garcia-Gomez, 380 F.3d 1167, 1173 (9th Cir. 2004)
(holding that the unserved portion of a sentence was not
suspended for purposes of
§ 4A1.2(b)(2) because the
decision to release was not made by the sentencing judge);
United States v. Hernandez, 27 F. App'x 36, 39 (2d Cir. 2001)
(per curiam) (holding that “suspension” under the guidelines
“refers to the judicial authority of a court”). These cases do
not establish, as Gonzalez suggests, that immediate parole,
when ordered by a sentencing court, constitutes a suspended
sentence under Pennsylvania law. Accordingly, any reliance
on these cases is misplaced.
The Court of Appeals for the Third Circuit recently rejected
an identical argument based on Pennsylvania's distinctions
between parole and suspension. See United States v. Parsons,
664 F. App'x 187, 192 (3d Cir. 2016) (emphasizing that,
“even though a defendant may serve the same amount
of time under a suspended sentence and a sentence with
immediate parole,” parole and suspension are not the same);
see also United States v. Frias, 338 F.3d 206, 211 (3d Cir.
2003) (explaining that, under Pennsylvania law, “parole is
not equivalent to other actions, such as suspension, that
result in a shorter sentence served”); Commonwealth v.

App. 7a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

United States v. Gonzalez-Ferretiz, 813 Fed.Appx. 837 (2020)

Filius, 346 Pa.Super. 434, 499 A.2d 1078, 1079 (1985)
(making distinction between immediate parole and suspended
sentence); cf.
Fleegle v. Commonwealth, 110 Pa.Cmwlth.
227, 532 A.2d 898, 899 (1987) (explaining that “[p]arole is a
conditional release from sentence[,]” while “[p]robation is a
suspended sentence of incarceration served upon such terms
and conditions as imposed by the sentencing court” (citations
omitted)). In Gonzalez's case, the sentencing court's order
plainly imposed “immediate parole,” not a suspended
sentence. Although there appears to be no available box to
check for a “suspended sentence” in the judgment order,
Gonzalez offers no binding precedent, nor is this Court aware
of any, to show that courts in Pennsylvania are not permitted
to issue suspended sentences. We, therefore, conclude that

the district court properly calculated Gonzalez's offense level
and criminal history score based on the imposed maximum
indeterminate sentence of 23 months.

III.
For the foregoing reasons, the judgment of the district court is
AFFIRMED.
All Citations
813 Fed.Appx. 837

Footnotes
1

2

In applying this rationale, the Gonzalez-Villalobos court held that while an alien had exhausted his
administrative remedies, he could not collaterally attack the validity of his deportation order because he had
not demonstrated that an “error or obstacle related to (Continued) his deportation proceedings improperly
8 U.S.C. § 1326(d)(2).” 724 F.3d at 1126.
deprived him of the opportunity for judicial review as required by
According to Gonzalez, a suspended sentence is governed by who makes the sentencing decision, not the
language stated in the judgment order. Specifically, Gonzalez contends that, under Pennsylvania law, where
an administrative agency decides to release an offender, the sentence constitutes parole, but where the
sentencing court makes the decision to release an offender, the sentence is deemed suspended.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App. 8a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

United States v. Gonzalez-Ferretiz, Not Reported in Fed. Supp. (2019)

2008, when he was encountered by Immigration and Customs
Enforcement (“ICE”) officials in Pennsylvania. Id. He was

2019 WL 943388
Only the Westlaw citation is currently available.
United States District Court, E.D. Virginia,
Richmond Division.

granted voluntary departure 2 to Mexico, and was removed to
Mexico on August 5, 2008. Id. He then reentered the United
States on some date before July 23, 2012. On that date, he
gave a sworn statement (written in English) to immigration

UNITED STATES of America,
v.
Isidoro GONZALEZ-FERRETIZ, Defendant.

officials while in state custody in Pennsylvania. 3 See Gov't
Ex. 1.
Then, on June 2, 2014, Gonzalez-Ferretiz was convicted in
Pennsylvania of “Theft from a Motor Vehicle” and received
a sentence of up to 23 months in prison, which appears to
be time served as of June 2, 2014. ECF No. 17 at 1; Gov't
Ex. 2; Def.’s Ex. 1. Following that conviction, GonzalezFerretiz was served with a “Notice of Intent to Issue a Final
Administrative Removal Order,” or Form I-851 (hereinafter,
the “I-851”), advising him that, because of the conviction

Criminal No. 3:18-cr-117
|
Signed 02/25/2019
|
Filed 02/26/2019
Attorneys and Law Firms
S. David Schiller, Office of the U.S. Attorney, Richmond, VA,
for United States of America.

MEMORANDUM OPINION
Robert E. Payne, Senior United States District Judge
*1 This matter is before the Court on DEFENDANT'S
MOTION TO DISMISS THE INDICTMENT (ECF No. 16)
(the “Motion”). For the following reasons, this motion was
denied by an ORDER entered January 23, 2019 (ECF No. 21).

BACKGROUND
I. Procedural Context
Isidoro Gonzalez-Ferretiz (“Gonzalez-Ferretiz”) was charged
in a one-count indictment with illegal reentry pursuant to
8 U.S.C. § 1326(a). ECF No. 3. On November 27,
2018, Gonzalez-Ferretiz filed DEFENDANT'S MOTION
TO DISMISS THE INDICTMENT (ECF No. 16) (the

for an “aggravated felony” under
8 U.S.C. § 1101(a) (43)
(G), he was a deportable alien. ECF No. 17 at 2; Gov't Ex.
3; ECF No. 16 at 1-2. On the continuation page attached
to the I-851 form, Gonzalez-Ferretiz was informed of the
specific conviction that served as the basis for his removal;
to wit: “Theft From a Motor Vehicle, in violation of Title
18 Section 3934 Subsection A of the Pennsylvania Criminal
Code.” Gov't Ex. 3.
Like all I-851 forms, the one served on Gonzalez-Ferretiz
contained a “Certificate of Service.” Gov't Ex. 3. This
“Certificate of Service” reports that it had been served on
Gonzalez-Ferretiz “in person” on June 3, 2014; and it recites
that it had been “explained and/or served” on GonzalezFerretiz in English. Id. Gonzalez-Ferretiz acknowledged the
service and explanation by affixing his signature. Id. Further
down on the same page of the I-851 form, Gonzalez-Ferretiz
selected a check-box that stated: “I Do Not Wish to Contest
and/or to Request Withholding of Removal.” Id. He also
selected a check-box that stated:

“Motion”). 1 The Government filed a brief (ECF No. 17)
in opposition to the Motion. No reply brief was filed by
Gonzalez-Ferretiz. On January 22, 2019, the Court received
evidence and heard oral argument on the Motion.
II. Factual Background
Gonzalez-Ferretiz is a Mexican citizen. ECF No. 17 at 1.
He came to the United States illegally sometime before July

*2 I admit the allegations and charge
in this Notice of Intent. I admit that I
am deportable and acknowledge that I
am not eligible for any form of relief
from removal. I waive my right to
rebut and contest the above charges.
I do not wish to request withholding

App. 9a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Gonzalez-Ferretiz, Not Reported in Fed. Supp. (2019)

pursuant to the 2014 Final Order, he was removed from the
United States on March 7, 2018. Id.; see also Aff. ¶ 17 (ECF
No. 1). Thereafter, Gonzalez-Ferretiz reentered the United

or deferral of removal. I wish to be
removed to [Mexico].

Id. Lastly, he selected a check-box that stated: “I understand
that I have the right to remain in the United States for 14
calendar days in order to apply for judicial review. I do
not wish this opportunity. I waive this right.” 4 Id. After
making these selections, Gonzalez-Ferretiz once again signed
the I-851 form. Id. Deportation Officer Matt Garrison signed
below Gonzalez-Ferretiz's signature as a witness. Id.
At the evidentiary hearing, Officer Garrison and Deportation
Officer Richard Tine explained the process by which I-851
forms are served on an alien. They both testified that, if an
alien indicates that he or she does not speak or understand
English, the alien is provided the I-851 form in his or her
native language. This is accomplished either by bringing
into the interview a native-speaking immigration official
to explain the document to the alien, or by connecting to
the so-called “language line,” which provides around-theclock translation services for immigration officials. If the
“language line” is called, the I-851 form is read to the
alien in his native language. Providing those translations is
standard ICE practice, and Officer Garrison testified that,
because no translation was provided in this case, GonzalezFerretiz would have advised that he spoke and understood
English. At the evidentiary hearing in this case, counsel for
Gonzalez-Ferretiz represented that Gonzalez-Ferretiz spoke
and understood English, but was using an interpreter in these
proceedings because of the nature of the proceedings.
Based on the state conviction in Pennsylvania and waivers
of his rights to challenge the removal, a Final Administrative
Removal Order (“Final Order”) was issued on June 3, 2014. 5
The Final Order found that Gonzalez-Ferretiz had a final
8 U.S.C. §
conviction for an “aggravated felony” under
1101(a) (43) (G) and that he was removable. Gov't Ex. 4; ECF
No. 17 at 2; ECF No. 16-1 at 1. Pursuant to the Final Order,
Gonzalez-Ferretiz was removed from the United States on
June 19, 2014. ECF No. 17 at 2.
Sometime thereafter, Gonzalez-Ferretiz again reentered the
United States illegally, was discovered by ICE officials, and
came into ICE custody pursuant to a “Reinstatement of the
Removal Order of June 19, 2014.” 6 ECF No. 17 at 3. On
February 20, 2018, Gonzalez-Ferretiz received a copy of the
Notice of Intent/Decision to Reinstate Removal Order, and

States illegally again. 7 ECF No. 17 at 3. He was indicted on
the illegal reentry charge on September 19, 2018 (ECF No.
3) and was arrested pursuant to the indictment on October 23,
2018. ECF No. 5; ECF No. 17 at 3.
*3 Officer Tine testified that he interviewed GonzalezFerretiz in early 2018; that they spoke in English; and
that Gonzalez-Ferretiz gave no indication that he did not
speak and understand English. Officer Tine was satisfied that
Gonzalez-Ferretiz understood all that was said to him.

DISCUSSION
A. Framework for Collateral Challenges to Prior
Deportation Orders
Gonzalez-Ferretiz has been charged with illegal reentry under
8 U.S.C. § 1326(a). To prove that charge, one of the
elements that the Government will have to establish is that
Gonzalez-Ferretiz “has been denied admission, excluded,
deported, or removed” and thereafter reentered the United
States without, inter alia, the permission of the United States
Attorney General.
8 U.S.C. § 1326(a). In
United
States v. Mendoza-Lopez, 481 U.S. 828 (1987), the Supreme
Court of the United States held that, in illegal reentry cases,
an alien has a due process right to challenge the underlying
deportation order. Thereafter, Congress codified the due
process requirements in
8 U.S.C. § 1326(d). See United
States v. Moreno-Tapia, 848 F.3d 162, 165-66, 169 (4th Cir.
Section 1326(d) “is concerned with
2017). At bottom,
failures of due process in an immigration proceeding that
would make it fundamentally unfair to rely on a removal order
coming out of that proceeding.” Id. at 169. The statute focuses
the inquiry on whether there were “procedural defect [s] in an
immigration proceeding [that] insulate [ ] the resulting order
from judicial review....” Id.
Section 1326(d) sets out three elements that an alien must
prove to challenge the underlying deportation order. In full,
that subsection reads:
In a criminal proceeding under this section [ 8 U.S.C.
§ 1326], an alien may not challenge the validity of

App. 10a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Gonzalez-Ferretiz, Not Reported in Fed. Supp. (2019)

the deportation order described in subsection (a) (1) or
subsection (b) unless the alien demonstrates that—
(1) the alien exhausted any administrative remedies that
may have been available to seek relief against the order;
(2) the deportation proceedings at which the order was
issued improperly deprived the alien of the opportunity
for judicial review; and
(3) the entry of the order was fundamentally unfair.
8 U.S.C. § 1326(d) (emphasis added). To satisfy

*4 The text of
8 U.S.C. § 1326 and Fourth Circuit
precedent establishes that the alien may only collaterally
challenge prior deportation orders in a

prosecution by following the requirements of
Section
1326(d). In Moreno-Tapia, the Fourth Circuit held that,
“[u]nder [ § 1326 (d) ], in order to bring a successful
collateral attack against a removal order, the defendant in an
illegal reentry prosecution must meet [the] three requirements
[listed in the statute].” 848 F.3d at 166. In a well-reasoned
recent decision, Judge Ellis confirmed this view in holding
that:

Section 1326(d) (3), the Fourth Circuit has held that an
alien “must show that (1) his due process rights were violated
by defects in his underlying deportation proceeding, and (2)

Congress has made clear that
an alien who demonstrates these
three prerequisites has been denied
meaningful judicial review in the
initial removal proceeding and thus
has the right to attack collaterally
the prior removal order and related

United
he suffered prejudice as a result of the defects.”
States v. El Shami, 434 F.3d 659, 664 (4th Cir. 2005) (quoting
United States v. Wilson, 316 F.3d 506, 510 (4th Cir. 2003)
). To show prejudice, the alien must show that, “but for the
errors complained of, there was a reasonable probability that
he would not have been deported.”

Id. at 665. An alien

§ 1326(d).
proceeding under
Importantly, the three prerequisites are
listed in the conjunctive, and thus,
as the Fourth Circuit has recognized,
the defendant must satisfy all three
prerequisites in order to be able to
challenge collaterally the underlying

may be excused from meeting certain
Section 1326(d)
requirements if the underlying deportation proceeding was
procedurally flawed. See Moreno-Tapia, 848 F.3d at 169;
United States v. Lopez-Collazo, 824 F.3d 453, 459-62 (4th
Cir. 2016) (due process violation where alien was served
the I-851 form in language he did not understand);
Shami, 434 F.3d at 662-64 (excusal from

El

removal order.
United States v. El
Shami, 434 F.3d 659, 663 (4th Cir.
2005). Therefore, defendant here may
not challenge the June 2007 Removal

Sections 1326(d)

(1) and
(d) (2) where alien did not receive notice of his
immigration proceeding).

Order unless he meets all three
§
1326(d) requirements. But if defendant
meets all three requirements, the
Indictment's illegal re-entry charge

It is evident from the statutory text that the defendant must
Section
satisfy (or be excused from) all three elements of
1326(d) to succeed in a collateral challenge. And, the Fourth
Circuit has so held.
El Shami, 434 F.3d at 663. The
burden of proof to establish that these elements have been
satisfied “rests with the defendant.” United States v. Galcia,
No. 1:15cr59, 2016 WL 4054926, *2 (E.D. Va. July 26, 2016).
And, that burden must be met by “a preponderance of the
evidence.” Id. (citing several cases). If the alien meets his
burden, “the illegal reentry charge must be dismissed as a
matter of law.”

El Shami, 434 F.3d at 663 (citing Wilson).

Section 1326(a)

under § 1326(a) and
be dismissed. Id.

(b) (1) must

United States v. Romero-Caceres, No. 1:18-cr-354, 2018 WL
6059381, at *3 (E.D. Va. Nov. 19, 2018) (emphasis added);
see also id. at *5 n.7. That reasoning applies fully here. 8
The Court recognizes that language in Moreno-Tapia
and a recent opinion by Judge Brinkema suggest that

App. 11a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Gonzalez-Ferretiz, Not Reported in Fed. Supp. (2019)

collateral challenges outside of
Section 1326 (d) might
be possible. See Moreno-Tapia, 848 F.3d at 170 (“We
need not decide today...whether due process might in some
circumstances demand that an immigration order based on an
unconstitutional conviction be subject to collateral attack.”);
United States v. Rivera Lopez, No. 1:18-cr-381(LMB), 2018
WL 6834363, at *3 (E.D. Va. Dec. 28, 2018) (it “remains
an open question” whether “due process requires that a
defendant be given an opportunity to bring a collateral attack
beyond the requirements and limitations of
(emphasis in original).

§ 1326 (d)”)

At this juncture, however, given the clear language of the
statute and the fact that Moreno-Tapia, Lopez-Collazo, and
El Shami all perform the collateral attack analysis solely
within the
Section 1326(d) framework, the cogent, wellreasoned approach taken in Romero-Caceres correctly sets
out the proper framework for resolving challenges such as the
one made here by Gonzalez-Ferretiz. And, so the Court holds
that an alien may only challenge his underlying deportation
order by satisfying the three requirements of
1326(d). Allowing collateral challenges in
prosecutions outside of

Section

Section 1326

Section 1326(d) flies in the face of

the clear statutory text and Congress’ intent. 9 Accordingly,
if the Court determines that Gonzalez-Ferretiz has failed
to satisfy any of the three elements of
Section 1326(d),
his collateral challenge must be rejected, and his motion
denied. 10
B. Analysis
*5 Before assessing whether Gonzelez-Ferretiz has met
his burden under
Section 1326 (d), it is appropriate
to resolve Gonzalez-Ferretiz's contention that, wholly apart
from the requirements of
Section 1326 (d), an alien may
collaterally attack the removal order by showing that his prior
removal is void for lack of jurisdiction. As set out below,
Gonzalez-Ferretiz argues that his 2014 removal was void
for lack of jurisdiction because he was not convicted of an
aggravated felony. After analyzing this argument, the Court
will assess whether Gonzalez-Ferretiz has met his burden
under

Section 1326(d).

a. Jurisdiction
Gonzalez-Ferretiz first argues that he can challenge his 2014
removal outside of the
Section 1326(d) requirements. See
generally ECF No. 16 at 3-15. In sum, he argues that his
conviction under the Pennsylvania theft statute was not an
“aggravated felony” and that, therefore, he was not amenable
to removal on the ground charged. Id. As Gonzalez-Ferretiz
sees it, the immigration official made an error of law in
2014 (there was no “aggravated felony”), and, as a result,
the “officer who entered [the removal order] lacked subject
matter jurisdiction to enter the order at all.” Id. at 3. Thus, the
argument goes, the underlying deportation is void and there
is no need for him to satisfy the

Section 1326(d) factors.

The nub of Gonzalez-Ferretiz's argument here is that a legal
error by immigration officials in 2014 means that those
immigration officials never had jurisdiction over his case,
and that his 2014 removal is void. In his briefing, GonzalezFerretiz has not cited a single case that supports this claim in a
Section 1326(a) prosecution. Id. at 3-6. That is, he has not
cited any authority involving a prosecution under 8 U.S.C.
§ 1326(a) whereby a defendant is permitted to challenge the
classification of the predicate offense underlying his removal
other than pursuant to the requirements of Section 1326(d).
Instead, Gonzalez-Ferretiz cites several appellate decisions
wherein courts have found that the Board of Immigration
Appeals lacked jurisdiction to order an alien's removal
where an immigration judge had not ordered removal. See
Rhodes-Bradford v. Keisler, 507 F.3d 77 (2d Cir. 2007);
James v. Gonzales, 464 F.3d 505 (5th Cir. 2006);
Noriega-Lopez v. Ashcroft, 335 F.3d 874 (9th Cir. 2003).
Those decisions did not arise in the context of a
1326 prosecution.

Section

Moreover, in the
Section 1326 context, it appears
that courts address arguments about whether a predicate
offense was an “aggravated felony” under the

Section

1326(d) requirements. See, e.g., United States v. MartinezHernandez, 912 F.3d 1207, 1211-15 (9th Cir. 2019)
(analyzing argument under
Section 1326 (d) (3) ); United
States v. Almanza-Vigil, 912 F.3d 1310, 1316 (10th Cir. 2019)

App. 12a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Gonzalez-Ferretiz, Not Reported in Fed. Supp. (2019)

(same). Thus, the Court does not find the cases cited by
Gonzalez-Ferretiz in his briefing to direct the inquiry here.
At the evidentiary hearing, counsel for Gonzalez-Ferretiz
stated that cases decided in the wake of Pereira v. Sessions,
138 S. Ct. 2105 (2018), support his jurisdictional attack. In
Pereira, the Supreme Court held that “[a] putative notice to
appear that fails to designate the specific time or place of the
noncitizen's removal proceedings is not a ‘notice to appear
under section 1229 (a),’ and so does not trigger the stopId. at 2113-14. Since Pereira, in
Section
time rule.”
1326 prosecutions, some courts have been asked to determine
whether Pereira invalidates underlying deportations that were
11

begun
by “notices to appear” that were defective under
Pereira because they did not contain the time or place of
the immigration proceeding. See Romero-Caceres, 2018 WL
6059381, at *5 n.7 (citing cases). That is, the defendants
in those cases argue that they may collaterally attack their
prior deportations because “the immigration court... [lacked]
jurisdiction to order” the alien's removal due to the defective
“notice to appear.” Id. at 5 & n.7.
*6 To decide this case, the Court need not wade into the
merits of these decisions and whether Pereira does impact the
jurisdiction of the immigration court because the validity of a
“notice to appear” is not at issue here. Gonzalez-Ferretiz was

the post-Pereira cases arise in a different context and are
not controlling on this issue. Accordingly, the Court rejects
Gonzalez-Ferretiz's attempt to skirt the requirements of
Section 1326 (d) by raising this jurisdictional argument.
Such an argument must be raised within the structure of
Section 1326(d), likely under
e.g.,

Section 1326(d) (3). See,

Martinez-Hernandez, 912 F.3d at 1211-15.

b.

Section 1326 (d)

Next, the Court considers whether Gonzalez-Ferretiz has
satisfied the three elements of Section 1326(d) that control
a collateral challenge to the 2014 removal. See Moreno-Tapia,
848 F.3d at 166; Romero-Caceres, 2018 WL 6059381, at *3.
Gonzalez-Ferretiz's argument here is that he has satisfied (or
is excused from satisfying) the
Section 1326(d) factors,
and therefore the indictment in this case must be dismissed.
See generally ECF No. 16 at 15-20.
Gonzalez-Ferretiz has the burden to show that he has
satisfied all three requirements of
Section 1326(d) by a
preponderance of the evidence. Galcia, 2016 WL 4054926,
at *2. For the reasons set forth below, Gonzalez-Ferretiz
has failed to establish compliance with (or excusal from)

removed pursuant to 8 U.S.C. § 1228 (“Expedited removal
of aliens convicted of committing aggravated felonies”),
where proceedings “commence upon personal service of the
Notice of Intent upon the alien”; the “Notice of Intent shall
constitute the charging document.” 8 CFR § 238.1(b)(2)(i);

either
Section 1326(d) (1) or Section (d) (2). Accordingly,
Gonzalez-Ferretiz's collateral attack on the 2014 deportation
order fails. Therefore, it is not necessary to reach the merits

see also 8 C.F.R. § 1003.14(a);
Lopez-Collazo, 824 F.3d
at 456-58 (describing the expedited removal procedures).
Whatever Pereira‘s impact, it is clear that it did not have
anything to say about the “Notice of Intent” at issue in this
case. Rather, Gonzalez-Ferretiz is attempting to extend the
line of cases post-Pereira dealing with the “notice to appear”

(1) Exhaustion of Available Administrative Remedies
It is uncontroverted that Gonzalez-Ferretiz never sought “any
administrative remedies that may have been available to

to a new context.

12

The Court does not find Gonzalez-Ferretiz's jurisdictional
argument persuasive. At bottom, he disagrees with the legal
conclusion that immigration officials made in 2014 about
his Pennsylvania conviction. He has not cited any authority
that such an error may be raised in the way he proposes
(i.e. outside of the requirements of
in a

Section 1326 (d) )

Section 1326 prosecution. And, as discussed above,

of his arguments under

Section 1326(d) (3).

seek relief against the [2014 removal order].”
8 U.S.C. §
1326(d) (1); see also ECF No. 17 at 5 n.1 (describing the
steps that Gonzalez-Ferretiz could have taken to challenge
his removal). Instead, the record proves, by a preponderance
of the evidence, that Gonzalez-Ferretiz signed an I-851 form
that expressly waived his right to review the 2014 removal
order and consented to his removal. See, e.g., Gov't Ex. 3.
Indeed, Gonzalez-Ferretiz does not argue that he satisfied the
exhaustion requirement (nor could he). Instead, he argues that
the waiver of the right to review reflected on the I-851 form
that he signed was invalid.

App. 13a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Gonzalez-Ferretiz, Not Reported in Fed. Supp. (2019)

*7 The parties agree that the validity of Gonzalez-Ferretiz's
waiver of his right to administrative review comes down to
whether he spoke or understood English when he was served
with, and given explanation of, the I-851 form and the Final
Order in June 2014. An invalid waiver could excuse his failure
to exhaust. See United States v. Ortiz, 488 Fed. Appx. 717,
718 (4th Cir. 2012) (unpublished);

United States v. Sosa,

Lopez-Collazo, 824
387 F.3d 131, 136 (2d Cir. 2004); cf.
F.3d at 459 (4th Cir. 2016) (assuming without deciding that
waiver on an I-851 form was invalid where defendant did
not sufficiently read or understand English). 13 “If, however,
[Gonzalez-Ferretiz] knowingly and voluntarily waive[d] his
right to appeal an order of deportation, then his failure to
exhaust administrative remedies...bar[s] [his] collateral attack
on the order in [the instant] illegal reentry prosecution under
§ 1326(d).” United States v. Lopez, 667 Fed. Appx. 837,
838 (4th Cir. 2016) (unpublished) (per curium).
The record establishes quite clearly that Gonzalez-Ferretiz
sufficiently understood and spoke English at the time he
was provided the I-851 form in June 2014. First, GonzalezFerretiz does not contend that, at the time, he did not
understand English. Instead, he argues that the I-851 form was
not served in his “native language” of Spanish. ECF No. 16
at 16-17. That sleight of hand is not enough. The fact that
Spanish is Gonzalez-Ferretiz's native language is not at all
dispositive. What matters is whether he also “understands”
English. 14
Second, the Government proved that Gonzalez-Ferretiz gave
a sworn, written statement in July 2012 in English. See
Gov't Ex. 1. That fact shows that, two years before being
served the I-851 form at issue, Gonzalez-Ferretiz understood
English. Third, two immigration officials, Officers Tine and
Garrison, testified that when serving I-851 forms, if an alien
indicated that he did not understand English, interpretive
services would have been provided and the I-851 form would
have been read to the alien in a language that he understood.
There is no record evidence to the contrary. Officer Garrison
witnessed Gonzalez-Ferretiz's signing of the I-851 form (and
affirmed this fact with his signature). While Garrison did
not remember Gonzalez-Ferretiz specifically, he testified
that the fact that the I-851 form was explained in English
shows that Gonzalez-Ferretiz would have demonstrated an
understanding of English at the time, or, under the standard

practice, the form would not have been read in English and
an interpreter would have been used.
Fourth, Officer Tine interviewed Gonzalez-Ferretiz in person
in February 2018. At that time, Officer Tine spoke with
Gonzalez-Ferretiz in English and Gonzalez-Ferretiz gave
no indication that he did not speak or understand English.
Finally, counsel for Gonzalez-Ferretiz—when asked why
an interpreter was present at the evidentiary hearing—
represented that Gonzalez-Ferretiz spoke conversational
English, and that an interpreter was present because legal
terminology was more complex.
*8 Based on the record as a whole, the Court finds that
Gonzalez-Ferretiz did speak and understand English when he
was served the I-851 form and Final Order in June 2014. He
also understood that part of the form that contains the written
waiver of his right to challenge his deportation. GonzalezFerretiz has offered no evidence to rebut this conclusion. His
waiver of these rights is therefore valid and does not excuse
his failure to exhaust administrative remedies. Accordingly,
the Court finds that Gonzalez-Ferretiz has failed to establish
that he has satisfied, (or is excused from), the requirement of
Section 1326 (d)(1).
(2) Deprivation of an Opportunity for Judicial Review
It is uncontroverted that Gonzalez-Ferretiz did not seek
judicial review of the 2014 deportation order until now. The
I-851 form informed him of his right to remain in the United
States for 14 calendar days to “petition for review of this order
to the appropriate U.S. Circuit Court of Appeals as provided
for in section 242 of the Act,
1 at 1.

8 U.S.C. 1252.” Gov't Ex.

Instead of availing himself of this right, Gonzalez-Ferretiz
waived it by selecting a check-box that read: “I understand
that I have the right to remain in the United States for 14
calendar days in order to apply for judicial review. I do not
wish this opportunity. I waive this right.” Gov't Ex. 3 at 2
(emphasis added). Based on the record evidence, the Court
finds that this waiver was valid because Gonzalez-Ferretiz
understood English at the time he signed the waiver. Because
he validly waived judicial review, Gonzalez-Ferretiz cannot
now claim that the 2014 deportation proceeding “improperly
deprived [him] of the opportunity for judicial review.”
U.S.C. § 1326(d) (2); see also
459.

8

Lopez-Collazo, 824 F.3d at

App. 14a

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

United States v. Gonzalez-Ferretiz, Not Reported in Fed. Supp. (2019)

Undeterred by this clear waiver of his right to judicial review,
Gonzalez-Ferretiz argues that the Fourth Circuit's decision in
Etienne v. Lynch, 813 F.3d 135 (4th Cir. 2015), excuses
Section
his failure to satisfy the judicial review prong of
1326(d). He argues that Etienne held that the I-851 form
and the administrative removal statute “do not provide an
alien an ‘opportunity to challenge the legal basis of his
Etienne, 813 F.3d
removal.’ ” ECF No. 16 at 17 (quoting
at 138). Therefore, says Gonzalez-Ferretiz, “an alien's failure
to appeal a legal determination underlying an administrative
removal order cannot be held against him.” ECF No. 16
at 17. Accordingly, the argument goes, Gonzalez-Ferretiz is
“excused from appealing the legal issue of whether his forgery
[sic] conviction constituted an aggravated felony.” Id. at 18.
When asked specifically at the evidentiary hearing where, in
Etienne, the Fourth Circuit had established that principle or
made that holding, counsel for Gonzalez-Ferretiz highlighted
on the Court's copy of the Etienne decision the following
language:

removal proceedings and the I-851 form did not provide
a way for aliens like Etienne to challenge the legal basis
for their removal. Id. Because there was no way to raise
such a challenge, Etienne “was not required to raise his
legal challenge to removal in order to meet the exhaustion
requirement,” and the Court thus had jurisdiction to proceed.
Id. at 142.
*9 However, Etienne does not address collateral attacks
under

8 U.S.C. § 1326(d). 15 Indeed, it does not even cite

Section 1326. Rather, that case dealt with the Court of
to
Appeals’ jurisdiction to hear an appeal of the alien's expedited
deportation at the time he was being deported. That is not
what this case is about. Moreover, here, Gonzalez-Ferretiz
expressly and knowingly waived the right to judicial review.
There is also another important factual difference between
this case and Etienne: Etienne indicated during his removal
proceedings that he wanted to challenge his removal.
813
F.3d at 137. Here, Gonzalez-Ferretiz waived that right and
consented to deportation.
For the foregoing reasons, the Court does not find that
Etienne controls its analysis here. Thus, contrary to GonzalezFerretiz's argument, it does not somehow negate his express
waiver of his right to judicial review. Because the Court
concludes that Gonzalez-Ferretiz understood English at the
time he was served the I-851 form and Final Order and that
Etienne does not apply, the Court finds that Gonzalez-Ferretiz
validly waived his right to judicial review. Thus, he fails to

As we explain below, we join the
Fifth Circuit in holding that, in
expedited removal proceedings, an
alien has no opportunity to challenge
the legal basis of his removal.
The INA's administrative—exhaustion
requirement therefore does not deprive
us of jurisdiction to consider such
a challenge in the first instance on
appeal.

establish that he has met

8 U.S.C. § 1326(d) (2).

(3) Fundamental Unfairness

813 F.3d at 138. While it is true that both this case and
Etienne deal with the I-851 form and a removal based on
an “aggravated felony” under
8 U.S.C. § 1101(a) (43),
the language above illustrates a key difference overlooked
by Gonzalez-Ferretiz. In Etienne, the Court of Appeals was
deciding whether it had jurisdiction to review Etienne's
expedited removal order under
8 U.S.C. § 1252(d) (1),
which requires that an alien “exhaust[ ] all administrative
remedies available to the alien as of right” before the

Since the
Section 1326(d) requirements “are listed in
the conjunctive...[Gonzalez-Ferretiz] must satisfy all three in
order to prevail” on a collateral attack of his prior deportation
order.
El Shami, 434 F.3d at 663 (internal quotations
omitted). Because the Court concludes that Gonzalez-Ferretiz
has failed to meet either
Section 1326(d) (1) or
(d) (2),
his collateral attack fails. It is thus not necessary to consider
arguments raised under Section 1326(d) (3), that “the entry
of the order was fundamentally unfair.”

Court of Appeals has jurisdiction.
Etienne, 813 F.3d at
138. The Court of Appeals concluded that the expedited

CONCLUSION

App. 15a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

United States v. Gonzalez-Ferretiz, Not Reported in Fed. Supp. (2019)

For the foregoing reasons, DEFENDANT'S MOTION TO
DISMISS THE INDICTMENT (ECF No. 16) was denied
pursuant to the ORDER of January 23, 2019 (ECF No. 21).

All Citations
Not Reported in Fed. Supp., 2019 WL 943388

It is so ORDERED.

Footnotes
1

2

3
4

5

6

7

8

The Defendant initially filed his Motion on November 15, 2018 (ECF No. 13). Because the Motion was filed
late, the Defendant sought leave to file out of time (ECF No. 14); and that request was granted on November
20 (ECF No. 15).
At the evidentiary hearing, there was some dispute raised about the 2008 removal. Counsel for GonzalezFerretiz called the 2008 removal “voluntary return,” rather than “voluntary departure.” Because the resolution
of the Motion does not turn on the meaning of those terms, it is unnecessary to resolve the difference between
the two terms.
It is unclear why Gonzalez-Ferretiz was in custody in 2012.
The I-851 form also included a half-page explanation (in English) of Gonzalez-Ferretiz's “Rights and
Responsibilities,” including his right to have an attorney in the immigration proceedings and his right to
challenge his removal. See Gov't Ex. 3 at 1. Additionally, on the page where Gonzalez-Ferretiz selected
that he did not wish to contest his removal, there was a check-box that stated “I Wish to Contest and/or
to Request Withholding of Removal,” and listed several grounds upon which Gonzalez-Ferretiz could make
such a challenge. Id. at 2. Gonzalez-Ferretiz did not select that option, but rather chose not to challenge
his deportation.
At the evidentiary hearing, Officer Tine explained that the Final Order is typically signed on the same day
that the alien is served with the I-851 form where, as here, the alien has indicated that he does not wish to
challenge his deportability.
The AFFIDAVIT IN SUPPORT OF CRIMINAL COMPLAINT (ECF No. 1) avers that, on December 25,
2017, Gonzalez-Ferretiz “was encountered by the [ICE] Lorton Command Center following GONZALEZFERRETIZ's arrest in Virginia for DUI 1st in violation of
V.A. Code § 18.2-266 in Caroline County Virginia.”
Aff. at ¶ 14. He was taken into ICE custody in Richmond on February 16, 2018, id. ¶ 15, and, on February
20, 2018, he was served with the order to reinstate the prior removal order. Id. ¶ 16.
While the exact details of this time period are unclear, the AFFIDAVIT IN SUPPORT OF CRIMINAL
COMPLAINT (ECF No. 1) states: “On September 11, 2018, GONZALEZ-FERRETIZ was encountered
in Laguna Niguel, California, following GONZALEZ-FERRETIZ's arrest in Caroline County for probation
violation. GONZALEZ-FERRETIZ is currently in state custody at the Pamunkey Regional Jail. An ICE detainer
I-247 was issued to the Pamunkey Regional Jail.” Aff. ¶ 19.
Like many courts facing
Section 1326 prosecutions in the wake of
Pereira v. Sessions, 138 S. Ct. 2105
(2018), Judge Ellis analyzed (and rejected) the defendant's argument that the original immigration proceeding
was void for lack of jurisdiction. 2018 WL 6059381, at *5-9. His opinion, however, analyzed this argument
only after “assuming, arguendo that defendant could clear the hurdle imposed by the three
requirements,” clearly requiring a satisfaction of the
argument could even be entertained. Id. at *5.

9

§ 1326 (d)

Section 1326 (d) requirements before the jurisdictional

The “Section-by-Section” analysis of the legislation that added
Section 1326(d) states that the new
subsection “allow[s] a court in a criminal proceeding against a deported alien who re-enters the U.S. to re-

App. 16a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

United States v. Gonzalez-Ferretiz, Not Reported in Fed. Supp. (2019)

examine the underlying deportation order only if the alien” satisfies the three requirements of
Section
1326(d). 140 Cong. Rec. S.5558-01 (daily ed. May 11, 1994), 1994 WL 181390, at *S5571 (emphasis added).

10
11

12

“This language taken from
United States v. Mendoza-Lopez, 481 U.S. 828 (1987), is intended to ensure
that minimum due process was followed in the original deportation proceeding while preventing wholesale,
time consuming attacks on underlying deportation orders.” Id.
Because it has been raised, the Court will briefly address Gonzalez-Ferretiz's jurisdictional argument too.
In certain immigration proceedings (not at issue here), procedures before the immigration judge begin upon
the filing of a “notice to appear.” See Romero-Caceres, 2018 WL 6059381, at *6-9 (describing how such
procedures operate). Because the “notice to appear” serves as a charging document, and the regulations
state that “[j]urisdiction vests, and proceedings before an Immigration Judge commence, when a charging
document is filed with the Immigration Court by the Service,” 8 C.F.R. § 1003.14(a) (emphasis added), the
argument is that a faulty “notice to appear” means that jurisdiction never properly vested with the immigration
court. See Romero-Caceres, 2018 WL 6059381, at *6-9.
The Court also notes that in a recent unpublished decision, the Fourth Circuit declined to give a broad reading
to Pereira. See
United States v. Perez-Arellano, No. 18-4301, 2018 WL 6617703, at *3 (4th Cir. Dec. 17,
2018) (unpublished) (per curium) (“Simply put, Pereira did not address the question of an immigration judge's
jurisdiction to rule on an alien's removability, and it certainly does not plainly undermine the jurisdiction of the

13

2004 removal proceeding.”). See also
Leonard v. Whitaker, 746 Fed. Appx. 269, 269-70 (4th Cir. Dec.
31, 2018) (unpublished) (per curium).
In Lopez-Collazo, the District Court concluded that the defendant “understood almost no English” and that it
was “patently clear that Lopez-Collazo in 2007 did not read or understand English to an extent sufficient to
enable him to comprehend the NOI or the Waiver form...or to make a knowing and informed decision on the

14

basis of forms that he could not read.”
Lopez-Collazo, 824 F.3d at 459 (internal quotations omitted).
Immigration officials must “provide the alien with a written translation of the Notice of Intent or explain the
contents of the Notice of Intent to the alien in the alien's native language or in a language that the alien

15

understands.” 8 C.F.R. § 238.1 (b) (2) (v) (emphasis added);
Lopez-Collazo, 824 F.3d at 462 (quoting
this language).
Though not raised by the parties, the Court has found one district court case expanding the reasoning of
Etienne to the
Section 1326(d) context. United States v. Cazares-Rodriguez, No. 3:17-cr-00327-GPC-1,
2017 WL 2212031 (S.D. Cal. May 19, 2017). There, the court held that Etienne’s reasoning that the I-851 does
not permit a legal challenge of the aggravated felony determination “applies with equal force in the context of
the
§ 1326(d) requirements.” Id. at *5. The Defendant's waiver of his right to challenge his deportation was
invalid where he did not know he could challenge his state conviction as not being an “aggravated felony.” Id.
Cazares-Rodriguez supports the decision reached here because it confirms that Etienne was not about
collateral attacks under
Section 1326(d). See Cazares-Rodriguez, at *4 n.3. And, absent direction from
the Court of Appeals on this issue, this Court will not follow an out-of-Circuit district court case that expands
a Fourth Circuit precedent to new contexts.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

App. 17a
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

App. 18a

App. 19a

